          ASSESSMENT REPORT
         REPORT NUMBER 12-04




         FEDERAL DIGITAL SYSTEM
INDEPENDENT VERIFICATION AND VALIDATION
       SIXTEENTH QUARTER REPORT

            February 24, 2012
Date
February 24, 2012
To
Chief Technology Officer
From
Inspector General
Subject
Federal Digital System (FDsys) Sixteenth Quarter Independent Verification
& Validation (IV&V) Report
Report Number 12-04


Attached is the sixteenth quarter Independent IV&V Report on the U.S.
Government Printing Office’s (GPO) development and implementation of
FDsys. The Office of Inspector General (OIG) contracted with American
Systems to conduct an IV&V in accordance with methodology established by
the Institute of Electrical and Electronic Engineers (IEEE) Standard
1012‐2004, the IEEE Standard for Software Verification and Validation.

American Systems provides quarterly observations and recommendations
on technical, schedule, and cost risks. Additionally, at the end of each FDsys
release phase, American Systems provides a summary program
management report.

The enclosed report is American Systems’ quarterly report for the period
July 7, 2011 to September 30, 2011. American Systems is responsible for
the attached IV&V report and the conclusions expressed in the report.
However, in connection with the contract, we reviewed American Systems'
report and related documentation and inquired of its representatives. Our
review disclosed no instances where American Systems did not comply, in
all material respects, with contract requirements.
Chief Technology Officer
Report 12-04
February 24, 2012
Page 2 of 2


If you have any questions or comments about this report, please do not
hesitate to contact me at (202) 512-0039.




Michael A. Raponi
Inspector General

Attachment

cc:
Acting Public Printer
Assistant Public Printer, Superintendent of Documents
Assistant Public Printer, Operations
General Counsel
Chief Financial Officer
Chief Information Officer
Acquisitions Director
                      IV&V RISK MANAGEMENT,
                  ISSUES, AND TRACEABILITY REPORT
 TO:            Michael A. Raponi
 FROM:          David Harold
 IV&V OF:       Quarterly Report (Draft – Document Number 02-036)
 SUBJECT:       July 7, 2011 – September 30, 2011 Quarterly Report
 DATE:          January 19, 2012
 CC:            Dan Rose, Margaret Brown


Background:
This report presents the critical technical, schedule, and cost risks identified for the Government
Printing Office (GPO) Federal Digital System (FDsys) Program. Specifically, it provides a high-
level overview of the key risks and issues that Independent Verification & Validation (IV&V)
has identified during the quarter ending September 30, 2011.

This is the sixteenth (16th) IV&V Quarterly Report and covers the period from July 7, 2011 to
September 30, 2011.

During this reporting period, the FDsys PMO completed the deployment of two (2) Release 2
production builds, and prepared/updated FDsys technical documentation. The production
releases are summarized below along with the other events that occurred during the third quarter
of Fiscal Year (FY) 2011.


References:

 a. FDsys Release 2 (R2) Master Schedule, July 6, 2011 (in SharePoint)
 b. Master Schedule 2, October 27, 2011 (in SharePoint)
 c. IV&V Quarterly Risk Report, Final, March 14, 2011
 d. Transition Master Plan, January 21, 2011 (in SharePoint)
 e. Integrated Library System (ILS) Requirements Document, version 1.0, May 5, 2011
 f. Submission Requirements Document (no date or version)
 g. Submission Capabilities Concepts of Operations Document, version 1.0, April 7, 2011
 h. FDsys Master Requirements List (for Release 1), Version #22, March 22, 2011 (in
    SharePoint)
 i. FDsys Requirements Management Plan, version 1.2, January 11, 2010 (in SharePoint)
 j. FDsys Risk Management Plan, version 3.6, January 25, 2011 (in SharePoint)
 k. FDsys Risk Database, January 25, 2011 (in SharePoint)
 l. FDsys RRB Meeting Minutes (various), (in SharePoint)
 m. FDsys FY2012 Development Activities list (provided by PMO October 26, 2011)




                                                                                      Page 1 of 15
FDsys Program Management Office (PMO) Summary

PMO Completion Plan Summary:

The tasks and activities that are required for the design and development of FDsys Release 2
have been incorporated into a Release 2 (R2) Master Schedule that is maintained by the FDsys
Program Director. Release 2 has been split into six (6) Groups (i.e., Groups A-F), each Group
having been allocated desired features and capabilities. The Release 2 Master Schedule
currently contains the tasks and activities through Group D which is slated to be complete in the
November 2011 timeframe.

During the past quarter the FDsys Program worked on the design, development, and deployment
of Release 2 Group C. The main tasking for this effort was the:

    •   Development and completion of a Pilot/refresh for the internal search engine for
        Documentum;
    •   Addition of new Collection named ECON1;
    •   Addition of a new rendition (Government Manual);
    •   Some Program Tracking Reports (PTR)/bug fixes; and
    •   Work on the Integrated Library System (ILS) (requirements gathering and design).

The FDsys PMO has been working on the requirements elicitation and derivation process for the
Integrated Library System (ILS) effort and has produced an initial version of an ILS
Requirements Document. This process is still ongoing. There have been several working group
meetings with the stakeholders, and the program plans to continue requirements meetings until
all requirements have been completed and approved. Currently a completion date has not been
agreed upon as this activity is dependent upon the availability and agreement of designated
working group representatives.

The FDsys PMO has also developed an initial Submission Requirements Document and
Submission Concepts of Operations (ConOps) document. These documents, while developed
initially in April 2011, were not available in SharePoint and just recently provided to IV&V from
the PMO.

IV&V previously reported that the Release 2 Master Schedule was being updated and
maintained on a timelier basis (when compared to the Release 1 Master Schedule); however,
during the past quarter, maintenance of the Schedule has appeared to cease. Start and Finish
dates for many tasks have come and gone, yet the Schedule has not been updated to reflect new
completion/finish dates. IV&V just recently received the Master Schedule 2 which is tracking
all of the development efforts that run September through November 2011. This new schedule
highlights activities that are late in completing; however, it is unclear if these missed due dates
have had any effect on the overall schedule, i.e., it does not appear the schedule has moved out
due to the missed completion dates.




                                                                              Page 2 of 15
Transition Plan Summary:

As reported in the IV&V Quarterly Report (March 2011), remaining tasks and activities to be
accomplished in order to sunset GPO Access were being maintained in a Transition Master Plan
that was being monitored/maintained by a GPO Transition Team. The Transition Master Plan is
available on SharePoint; however, the document has not been maintained, i.e., initial due dates
that were once scheduled and missed have not been updated and the document still has a January
2011 date. Note that the because the Transition Master Plan is not being maintained and has
not changed in nearly six (6) months IV&V cannot determine the status of the activities and tasks
contained therein. Though the Transition Master Plan has not been maintained it does appear
that transition activities have been occurring. IV&V attended a meeting to discuss the archiving
of GPO Access on October 31, 2011. The archiving of GPO Access is scheduled to occur on
November 4, 2011. This means that there will be no new content for GPO Access. It is also
planned that redirects will not be turned on until the beginning of the new calendar year 2012.
The concern is that FDsys would be overwhelmed with more hits and emails from users
attempting to get access to content. Many users have links and crawlers inside GPO Access.
When these no longer work they will have to update them so they will be able to access the
content in FDsys similarly to how they accessed content in GPO Access. As previously reported
in the IV&V December 2010 Quarterly Risk Report, it redirects “redirect” data coming into GPO
Access to FDsys.

Current Release Summary:

During the past quarter the FDsys Program has worked on the design, development, and
deployment of Release 2 Group C. As reported in the GPO’s Federal Digital System Program
Review, “Release 2 is going to be implemented over four (4) major releases” with functionality
mapped to Groups A through D. Since the initial planning, two (2) additional Groups have been
added, i.e., Groups E and F. In addition to working on the new Collections, the FDsys PMO has
been fixing Program Tracking Reports (PTRs) that were assigned to each Group.

Release 2.3.0.12

The deployment of Release 2.3.0.12 occurred on August 29, 2011. This Production release
contained the Release 2 Group C development efforts including updates for ECONI and
GOVMAN. The build also included enhancements to Documentum and XMELogic and fixes to
eighteen (18) PTRs.

Release 2.2.2.10

The deployment of Release 2.2.2.10 occurred on August 2, 2011. This Production release
consisted of a new GPO.gov online form for publications for Congressional offices.




                                                                             Page 3 of 15
Release 2.2.1.08 (went un-reported in previous IV&V Quarterly Task Report):

The deployment of Release 2.2.1.08 occurred on June 16, 2011. This build was an emergency
deployment consisting of modifications to the Institute Registration Form on GPO.gov.

Future Work:

The FDsys Program Director recently provided IV&V with a list of development activities for
2012. That FY2012 Development Activities list is provided below.

FY12 FDsys Development Priorities

   1. GPO Access Archive/Sunset
          a. Archive in November 2011
          b. Sunset targeted for December 2011/January 2012
   2. Mobile Apps Development
          a. Congressional Pictorial Directory in October 2011
          b. GPO Virtual Exhibit in December 2011
   3. Administrative Office of the US Courts Pilot
          a. Launch with data from 3 courts in October 2011
          b. Add additional 28 courts through February 2012 (based on availability of content
             from AOC)
   4. ILS/FDsys Interoperability and single search
          a. Identified as FY12 key activity
   5. API Development
          a. Supports usability and promotes reuse of content
          b. Identified as FY12 key activity
   6. Bound Congressional Record Digitized Collection
          a. To be completed in FY12. Development work to begin first quarter FY12
   7. Constitution Annotated (CONAN)
          a. Launch in January 2013, development to begin in FY12
   8. Report of the Secretary of the Senate Collection
          a. Launch in November 2011
   9. Federalregister.gov Development
          a. Ongoing through FY12
   10. Web Content Delivery
          a. Architecture change to introduce permanent solution to malicious activity
          b. Launch in December 2011
   11. XML Authentication
          a. Identified as FY12 key activity
   12. Congressionally Mandated Reports Collection
          a. Identified as FY12 key activity
   13. Linking Publications
          a. Based on stakeholder requests to enable the linking of publications from different
             collections through search results and Content Detail pages
          b. Identified as FY12 key activity

                                                                            Page 4 of 15
IV&V Activity Summary

Key IV&V Efforts:

IV&V continues to meet on a biweekly basis with the FDsys PMO Program Director in an
exchange of technical and programmatic information. These meetings provide insight into the
FDsys Release activities and tasks that cannot always be found on a Schedule/Plan. The
meetings also provide the IV&V group an opportunity to express ideas and request
programmatic and technical documentation that may be available, and will enable IV&V to
complete its own plan/schedule, activities and tasks coinciding with those in the FDsys IV&V
Plan.


IV&V Reports:

For Release 2, IV&V submitted one (1) Task Report and one (1) Quick Look Report to the
Office of the Inspector General (OIG) during the timeframe covered by this quarterly report.
These tasks reports evaluated the:

    •    FDsys Requirements Management Process (Task Report); and
    •    FDsys Risk Management Process (Quick Look Report).


1. Technical Risks Identified

Since July 2011, the PMO has concentrated its efforts on the development and subsequent
deployment of Release 2 Group C which includes activities and tasks related to developing new
Collections, ECON1 and USCOURTS, fixing PTRs that were mapped to the Release (currently
thirty-six (36) PTRs are assigned to Release 2 Group C), and working on the library community
features including Integrated Library System (ILS) and integrated search capability.
The USCOURTS collection was not part of the original functionality for Release 2, based on the
information provided in the GPO’s Federal Digital System Program Review. Rather, this
development work was the result of requests made by other Government agencies, specifically
the United States Courts. If outside agency requests are required to be acted upon by the FDsys
PMO, cost overruns and schedule slips, based on documented requirements, will continue to
occur. IV&V believes that this is an agency-level issue that needs to be reviewed and resolved.
According to FDsys Configuration Management, there are five hundred fifty-one (551) PTRs
currently with an Open status in ClearQuest, of which four hundred fifty nine (459) are from
defects found during testing and other activities. The breakdown of those open PTRs by Severity
Code 1 is:


1
  As defined in the FDsys Master Test Plan: Severity 1: Problem causes a complete system outage at an operations level and/or
is greatly detrimental to the program execution (such as loss of ingested data or loss of functionality with no work around);
Severity 2: Problem adversely affects the accomplishment of an operational or mission-essential capability specified by baseline
requirements. It degrades system performance and/or causes risk to program execution; Severity 3: A workaround is available to

                                                                                                     Page 5 of 15
         •    Severity 1 (Critical): zero (0) PTRs;
         •    Severity 2 (Adverse): one hundred sixty-six (166);
         •    Severity 3 (Alternative): two hundred forty-one (241);
         •    Severity 4 (Low Impact): fifty-two (52); and
         •    Non-defect: ninety-two (92).


2. Schedule Risks Identified

There is the potential for schedule risks associated with IV&V evaluation findings from the
IV&V Task Reports.

The FDsys Program continues to work on outside government agency requests for new
Collections resulting in the delay of design and development of FDsys based on documented
requirements. The re-prioritization to accomplish this additional tasking continues to push the
schedule out, resulting in delayed functionality not only to FDsys but the stakeholder
community. In addition to these schedule risks, the Government Printing Office (GPO) risks the
alienation of a once-supportive stakeholder community due to the continued delay of anticipated
and promised functionality.

Also note that problems continue to be found with the deployed FDsys since the initial Beta
deployment in March 2009. The open PTRs (459 defects, 92 non-defect PTRs) referenced in
Section 1 above are actively being worked; however, even with reduction of PTRs due to the
completion of Release 2 Group C and recent identification and tagging of duplicate and no
longer applicable PTRs, over four hundred (400) PTRs will still be open. These problems
require the PMO to divert resources away from Release 2 tasks and activities resulting in
schedule delays.


3. Cost Risks Identified
There are cost risks inherent with the technical issues identified during the July to September
2011 timeframe. While the FDsys Program continues to make progress with the design and
development of Release 2, the Program still suffers from not using proven earned value analysis
to track schedule and cost. This is especially critical because significant effort has been diverted
away from performing actual FDsys design and development work based on the FDsys
requirements. Instead, the FDsys Program often seems required to respond to requests from


allow accomplishment of an operational or mission-essential capability specified by baseline requirements; Severity 4: An issue
that is an end user inconvenience or annoyance that does not affect a required operational or mission-essential capability. Non-
defect: Non-operational defect, e.g., documentation update.




                                                                                                     Page 6 of 15
other government agencies for new Collections; thus, diverting resources once allocated to the
completion of FDsys. These additional requests force the FDsys Program to incur additional
costs for completion of the design, development, testing, and implementation of FDsys.


4. Evaluate Requirements Management Process
During this quarter, IV&V performed an evaluation of the requirements management process to
determine if the processes and procedures delineated in the FDsys Requirements Management
Plan (RMP) were being implemented as written.

The results of the evaluation revealed that the Requirements Management processes utilized by
the PMO as currently documented in the FDsys Requirements Management Plan have been
implemented inconsistently across the FDsys releases. For Release 1 the PMO conducted
requirements working group meetings where requirements were reviewed and decomposed into
Derived Requirements. However, for Release 2 the PMO has not conducted these reviews and
has yet to decompose the high-level requirements (i.e., RDs) into low-level requirements (i.e.,
DRs). While it would appear that the PMO regressed in following the documented processes,
Release 1 requirements that were decomposed into Derived Requirements were never integrated
into the FDsys Master Requirements List (for Release 1). Because the PMO is using MS Excel
as the requirements database, the Release 1 Derived Requirements can be found in the same MS
Excel Workbook; however, they are maintained as a separate worksheet tab.


5. Evaluate Risk Management Process

IV&V reviewed the FDsys Program Management function this quarter. The goal of the
evaluation was to analyze the current GPO program management practices, assess their
effectiveness, and provide potential recommendations for improvements moving forward with
Release 2 of FDsys.

A good risk management program enables a program office to identify and mitigate program
risks before they become problems. The risk management program that is described in the FDsys
Risk Management Plan (RMP) is not being implemented according to the tenets of that plan.
According to the FDsys Risk Management Plan, “The Risk Review Board (RRB) meets at least
once a month at a minimum for the duration of the FDsys program.” However, the FDsys Risk
Management program has not been implemented for some time. The last risk management
activity appears to have been the update to the FDsys Risk Management Plan (version 3.6,
January 26, 2011); and convening of the Risk Review Board (RRB) in March 2011, nearly six
(6) months ago. Additionally, the January 2011 update to the FDsys RMP erroneously
documented the importance and use of risk triggers.

The Risk Database has not been updated since January 25, 2011. IV&V examined the database
and found that it contains six (6) risks. According to entries in the database, four (4) of these
risks have not been reviewed since 2010. The remaining two (2) risks were reviewed in
November 2010. It does appear from the RRB Meeting Minutes that when the RRB is

                                                                             Page 7 of 15
conducted, risks are reviewed and updated as appropriate. Also, the RRB reviews and evaluates
newly proposed risks and status problems (i.e., problems are risks that have been realized).


6. Recommendations
Recommendations from IV&V evaluations (i.e., Task Reports) performed during the third
quarter in Fiscal Year 2011 are provided below. Note that a number of those recommendations
were previously reported in prior IV&V Task Reports. Management Responses and Evaluations
of these responses were added by GPO/OIG personnel. A number of these recommendations
were closed based on the PMO response to implement the changes going forward into Release 2;
however, as the findings (from the IV&V Reports) indicate, many of the same problems and
issues continue to persist in the FDsys Program.

FDsys Requirements Management Process:

   1. Update the FDsys Requirements Management Plan to reflect use of MS Excel as the
      requirements management tool. The Plan should also redefine the processes needed to
      maintain the requirements’ records, and the responsibilities associated with the MS Excel
      requirements database. Further, the requirement property values that were described
      therein, previously associated with the use of CaliberRM, now need to reflect the column
      headers that are used in MS Excel to include their description and purpose.

Management’s Response. Partially Concur. Management noted that an existing open
recommendation exists to address updates to this Plan; it was concurred with, the updated
process is currently in use with formal documentation updating underway, and a delivery date of
March 1, 2012 has been set. Due to these factors, management requested closure of this
recommendation as a duplicate recommendation

Evaluation of Management’s Response. Management’s planned action is partially responsive
to the recommendation. The recommendation is resolved but not yet implemented and will
remain open for reporting purposes pending completion and confirmation of the planned action.

   2. Conduct a review of the requirement attributes maintained in MS Excel. The attributes
      mentioned in Section 4.2 should be considered as possible additions. Use Case and
      Workflow information should be added to the database. The appropriate traceability
      among Use Cases, Workflows, and RD Requirements should be established and
      incorporated into MS Excel.

Management’s Response. Concur. Management stated that the Requirements Management
Plan update process will include reviews of requirements attributes and traceability between
requirements and artifacts, with activity to be completed March 1, 2012.

Evaluation of Management’s Response. Management’s planned action is responsive to the
recommendation. The recommendation is resolved but not yet implemented and will remain


                                                                           Page 8 of 15
open for reporting purposes pending completion, implementation, and confirmation of the
planned action.
    3. Ensure that the RTVM is consistent, as of its issue date, with the information contained in
       the FDsys Master Requirements List.

Management’s Response. Concur. Management stated that the RTVM is maintained by the
Systems Test Branch (STB) as formal testing on an incremental release is completed. STB will
continue to follow this practice for the FDsys development lifecycle; therefore, since the process
is already in place as an ongoing routine task, they request that the recommendation be
considered for closure.

Evaluation of Management’s Response.         Management’s action is responsive to the
recommendation. The recommendation is resolved and will be closed for reporting purposes.

   4. Draft a Program Directive indicating that the requirements derivation process will not be
      implemented for remaining high-level requirements (in the FDsys Requirements
      Document) unless a new feature is introduced that impacts those existing requirements.

Management’s Response. Concur. Management stated that the process for derivation of
remaining FDsys requirements from the original RD baseline will be incorporated into the
Requirements Management Plan update process, with the activity to be completed March 1,
2012.

Evaluation of Management’s Response. Management’s planned action is responsive to the
recommendation. The recommendation is resolved but not yet implemented and will remain
open for reporting purposes pending completion, implementation and confirmation of the
planned action.

   5. Create a single report that aligns the system requirements (RDs), derived requirements
      (DRs), software components, and Test Cases.

Management’s Response. Partially Concur. Management stated that this information is
maintained in the Master Requirements List, where it can be reported based on need. The
Requirements Management plan update process will include reviews of requirements attributes
and traceability between requirements and artifacts, which will also include a review of standard
reports. The activity will be completed March 1, 2012.

Evaluation of Management’s Response. Management was partially responsive to our
recommendation. While maintaining the Master Requirements List is the appropriate first step in
developing a single report, management’s response does not address whether all cited
information, including RDs, DRs, software components, and Test Cases, will be aligned. We
request that management provide additional information to clarify whether a single report
comprising all these items will be developed and implemented.




                                                                             Page 9 of 15
FDsys Risk Management Process Implementation:

   6. FDsys should reestablish an active risk management program as soon as possible. The
      FDsys risk management program has been moribund for at least the past several months.
      IV&V believes the reestablishment of a managed risk program would provide several
      benefits to the FDsys effort:

          a. Open communication would be enhanced; and
          b. Problems could be addressed and possibly avoided at an earlier point in time,
             minimizing cost and schedule impacts.

Management’s Response. Concur. Management stated that the Risk Management process has
been re-established and the process defined in the Risk Management Plan is being followed.
Since they claimed that the recommendation has been implemented, OCTO requested that this
recommendation be considered for closure.

Evaluation of Management’s Response.         Management’s action is responsive to the
recommendation. The recommendation is resolved and will be closed for reporting purposes.

   7. The FDsys PMO and GPO Chief Information Officer need to develop a strategy for
      FDsys moving forward; i.e., will the design and development of FDsys to the original
      requirements set continue, or will further efforts on the Program be restricted to
      responding to other government agency requests?

Management’s Response. Partially Concur. Management stated that GPO is intending to
continue to follow the Agile development methodology. Continued FDsys feature enhancements
will be identified and assigned to release increments based on agency priority. Management
claimed that the FDsys program intends to continue to follow the Agile development
methodology. Continued FDsys feature enhancements will be defined and assigned to release
increments based on agency priority. Management concluded that since the strategy for FDsys
development has been both defined and accepted by GPO management, they requested that this
recommendation be considered for closure.

Evaluation of Management’s Response. Management’s planned action is partially responsive
to the recommendation. The recommendation is resolved but not yet implemented and will
remain open for reporting purposes pending completion and confirmation of the planned action.

   8. If the design and development of FDsys to the original requirements set continues, the
      Program needs to form a requirements working group, which includes members of the
      design, development, and testing teams, to decompose those high-level requirements into
      Derived Requirements (DRs).

Management’s Response. Partially Concur. Management stated that all remaining open
recommendations from the 2005 FDsys RD baseline have been assigned to features within the
FDsys Features Inventory. As features from the Features inventory are added to an incremental
release, any existing requirements will be reviewed and derived through a requirements working

                                                                         Page 10 of 15
group. Management claimed that this process is already being followed for the ILS
interoperability feature, where requirements are being reviewed, developed, and derived by a
working group that includes PST and LSCM representatives. Management concluded that since
the process in this recommendation is already being followed, they requested that this
recommendation be considered for closure.

Evaluation of Management’s Response. Management’s planned action is partially responsive
to the recommendation. The recommendation is resolved but not yet implemented and will
remain open for reporting purposes pending completion, implementation, and confirmation of
the planned action.

   9. The FDsys PMO should develop a project management resources plan. The resources
      plan will help the FDsys Program Director determine the number of resources needed to
      complete the project as well as the skill sets those resources need to possess to complete
      the project.

Management’s Response. Partially Concur. Management stated that an overall resource plan
for the PST organization is being implemented at the direction of the CTO. Management
claimed that this resources plan covers all resources within the organization, giving an even
broader view into resource availability. Management concluded that since this task is underway
independently of the FDSys program, OCTO requested that the recommendation be considered
for closure.

Evaluation of Management’s Response.         Management’s action is responsive to the
recommendation. The recommendation is resolved and will be closed for reporting purposes.

   10. The original schedule for the transition activities that are required for GPO Access
       retirement needs to be updated on a timely and consistent basis, and risks that threaten
       that schedule need to be identified and tracked.

Management’s Response. Partially Concur. Management stated that all FDsys-specific tasks
related to the sunset and retirement of GPO Access have now been completed. Management
claimed that the GPO Access retirement process is now being driven by overall GPO business
need and resources. Management concluded that given the status of the GPO Access system
retirement, OCTO requested that the recommendation be considered for closure.

Evaluation of Management’s Response.         Management’s action is responsive to the
recommendation. The recommendation is resolved and will be closed for reporting purposes.




                                                                          Page 11 of 15
Appendix A. Management's Response




                                    Page 12 of 15
     Appendix A




Page 13 of 15
                  Appendix B. Status of Recommendations
_____________________________________________________________________________

Recommendation No.           Resolved   Unresolved    Open/ECD*      Closed
          1                      **                     3/1/2012
          2                       x
          3                       x                                          x
          4                       x                     3/1/2012
          5                      **                     3/1/2012
          6                       x                                          x
          7                      **
          8                      **
          9                      **                                          x
         10                       x                                          x

*Estimated Completion Date
** Partially Resolved




                                                             Page 14 of 15
                          Appendix C. Distribution List
______________________________________________________________________

Assistant Public Printer, Operations
Assistant Public Printer, Superintendent of Documents
Chief of Staff
Chief Information Officer
Chief Technology Officer
General Counsel
Acquisitions Director




                                                          Page 15 of 15
